No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
TRAVARIS CRAWFORD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 23rd day of July, 2020, in accordance with SUP. CT. R. 29,
the (1) Petition for Writ of Certiorari, (2) Motion for Leave to Proceed In Forma
Pauperis, (3) Certificate of Service, and (4) Declaration Verifying Timely Filing, were
served electronically with the Clerk of the Court using CM/ECF and sent by third
party commercial carrier for delivery upon Noel Francisco, Solicitor General of the
United States, Room 5614, Department of Justice, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001.
MICHAEL CARUSO
Federal Public Defender
Fort Lauderdale, Florida
July 23, 2020

By:

s/ Bernardo Lopez
Bernardo Lopez
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

